Z0-11S
IN THE SUPREME COURT OF THE UNITED STATES
E. Edward Zimmermann
Petitioner

Supreme Court, U.S.
FILED

JUL 3 1 2020

V.

The United States Government

OFFICE OF THE CLERK

In the United States District Court for the Middle District of Pennsylvania
Case No.: 3:20 CV-01253
The Borough of Doylestown
In the United States District Court for The Eastern District of Pennsylvania
Case No. 3:20-CV-01407
Respondents

Petition for an Extra Ordinary Writ of Mandamus or in the
Alternative an Extra Ordinary Writ of Prohibition
E. Edward Zimmermann
PO Box 1077
Effort, PA 18330
William Bar, Attorney General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
David J. Freed, United States Attorney
The US Attorney’s Office for The Middle District of Pennsylvania
William J. Nealon Federal Building and Courthouse
235 N. Washington Avenue, Suite 311
Scranton, PA 18503
William M. McSwain, United States Attorney
U.S. Attorney's Office
615 Chestnut Street, Suite 1250
Philadelphia, PA 19106

/

K

Gregory David, Civil Chief
U.S. Attorney's Office
615 Chestnut Street, Suite 1250
Philadelphia, PA 19106
Noel Francisco, Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Rufus A. Jennings, Esquire
The Borough of Doylestown
Deasey Mahoney & Valentini
1601 Market Street, Suite 3400
Philadelphia, PA 19103-2301
Tom Wolf, Governor
The Commonwealth of Pennsylvania
Office of the Governor
508 Main Capitol Building
Harrisburg, PA 17120
Josh Shapiro, Attorney General
The Commonwealth of Pennsylvania
Pennsylvania Office of the Attorney General
Strawberry Square
Harrisburg, PA 17120

ii

QUESTIONS IN LAW PRESENTED FOR REVIEW1
Are “terms and conditions of employment and working conditions” as
defined by The National Labor Relations Act (NLRA), subject matter left to
Petitioner and Petitioner’s Employees?
Or,
Are “terms and conditions of employment and working conditions” as
defined by The National Labor Relations Act, subject matter left to Federal
and State Government?

1 The question at bar is a question "In Law" and is not a question "In Equity".

iii

LIST OF PARTIES
[ X ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A
list of all parties to the proceeding in the court whose judgment is the subject
of this petition is as follows:

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW

m

LIST OF PARTIES

IV

TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES

IV - v

PRIOR OPINIONS

v

JURISDICTION

v

STATUTES AND RULES

vi

STATEMENT OF THE CASE

1-2

CONCLUSION

2 -3

TABLE OF AUTHORITIES
1) Every landmark decision, The Supreme Court of The United States (The
Supreme Court) has heretofore issued.

iv

2) Every Federal and State decision junior to The Supreme Court’s landmark
decisions.
3) Building Construction Trades Council v. Associated Builders (1993) No.
91-261, Argued: December 9, 1992, Decided: March 8, 1993
4) National Federation of Independent Business v. Sebelius, 567 U.S. 519
(2012)
5) The Declaration of Independence
6) The Constitution of The United States of America
PRIOR OPINIONS
1) Building Construction Trades Council v. Associated Builders (1993), No.
91-261, Argued: December 9, 1992 Decided: March 8, 1993.
2) National Federation of Independent Business v. Sebelius, 567 U.S. 519
(2012).
JURISDICTION
This Court is the only Court having constitutional authority, by and
through the supremacy clause, to speak for the supremacy of the constitution
as the supreme law of the land and bind the Executive, Congressional and
Judicial forms of federal and state government, as welLas, Petitioner to the
answer in law to the question in law proffered.

v

Additionally this Court has original and appellant jurisdiction to all
cases, in Law and Equity pursuant to the authorities and jurisdiction
conferred by Article Three, Section Two of The Constitution, the authorities
conferred by 28 U.S.C. §1651 (a) and (b), as well as, the authorities conferred
by, 28 U. S. C. § 2403 (a) and (b).
STATUTES AND RULES
1) The National Labor Relations Act (NLRA or The Act).
2) The Borough of Doylestown Responsible Contractor Ordinance (RCO).
3) Davis-Bacon and Related Acts,
4) Pennsylvania Minimum Prevailing Wage Rates Act No. 442 of 1961, P.L.
987, Amended by Act 342 of 1963, P.L. 653
5) Pennsylvania Prevailing Wage Act, Act of Aug. 15, 1961, P.L. 987, No. 442
Cl. 43.

vi

STATEMENT OF THE CASE
Preamble
This could very well be the most significant “question in law” proffered
before the Supreme Court of The United States (The Supreme Court) for its
review and consideration since the enactment of The Constitution
The Instant Matter
The answer to, the question in law identified in this Writ, could serve
to answer a question in law before The United States District Court for the
Eastern District of Pennsylvania, in E. Edward Zimmermann vs. The
Borough of Doylestown Case No.: 3:20 CV-01407, and answer a question in
law before the United States District Court for the Middle District of
Pennsylvania, in E. Edward Zimmermann vs. The United States Case No.
Case No.: 3:20 CV-01253
In the Borough of Doylestown matter, the Boroughs Responsible
Contractor Ordinance and The State of Pennsylvania’s Prevailing Wage
statute calls into question federal vs. state constitutional authorities to
regulate commerce. Additionally, the Doylestown Responsible Contractor
Ordinances and the Project Labor Agreement (PLA) used in the Boston
Harbor matter are in and of themselves exact copies of each other except
using different words in that both are State government regulating
commerce.

1

X

The question in law raised in case no. 3:20-CV-01253 calls into
question the proper use of Congresses Article One necessary and proper
authorities, and the proper use of Congresses Article One regulation of
commerce authorities as used and identified in the Affordable Health Care
Act legislation.

RELIEF
1) Petitioner respectfully request a ruling in law or an opinion in law
on the question at bar in the instant matter.
2)’

If the Court decides the question at bar and if the Court identifies
terms and conditions of employment and working conditions as
subject matter left to Petitioner, then Petitioner respectfully
request a review in law de novo of, the Boston Harbor matter.

3) If the Court decides the question at bar and if the Court identifies
terms and conditions of employment and working conditions as
subject matter left to Petitioner, then Petitioner respectfully
request a review in law de novo of the Affordable Health Care Act.
4) Lest anyone think Petitioners procedural errors are something
other than errors, or Petitioners motives are anything but
constitutional, kindly be held Petitioner waives all rights in law
and equity in this matter and further waives any right to say
anything further about this matter unless ordered otherwise by this
Court.
2

Respectfully submitted,

E. Edward Zimmermann
08-25-2020

cc:

William Bar, Attorney General
David J. Freed, United States Attorney
William M. McSwain, United States Attorney
Noel Francisco, Solicitor General
Solicitor, Doylestown Brough
Tom Wolf, Governor
Josh Shapiro, Attorney General

3

^%A

IN THE SUPREME COURT OF THE UNITED STATES
The Firm
Petitioner
v.
The Borough of Doylestown
The Commonwealth of Pennsylvania
Respondents

)
)
)
)
)
)
) •
)

Case No.:

CERTIFICATE OF SERVICE
I, E. Edward Zimmermann, representing myself, do hereby certify that on
this the 25th day of August 2020,1 served a copy of the foregoing Extra Ordinary
Writ of Mandamus or in the alternative an Extra Ordinary Writ of Prohibition on
the opposing side by mailing a copy thereof to,
1) William Bar, Attorney General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
2) David J. Freed, United States Attorney
The US Attorney’s Office for The Middle District of Pennsylvania
' William J. Nealon Federal Building and Courthouse
235 N. Washington Avenue, Suite 311
Scranton, PA 18503
3) William M. McSwain, United States Attorney
U.S. Attorney's Office
615 Chestnut Street, Suite 1250
Philadelphia, PA 19106
4) Noel Francisco, Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

s— *

5) Rufus A. Jennings, Esquire
The Borough of Doylestown
Deasey Mahoney & Valentini
1601 Market Street, Suite 3400
Philadelphia, PA 19103-2301
6) Tom Wolf, Governor

The Commonwealth of Pennsylvania
Office of the Governor
508 Main Capitol Building
Harrisburg, PA 17120
7) Josh Shapiro, Attorney General

The Commonwealth of Pennsylvania
Pennsylvania Office of the Attorney General
Strawberry Square
Harrisburg, PA 17120

Respectfully submitted,

E. Edward Zimmermann
08-25-2020

IN THE SUPREME COURT OF THE UNITED
STATES
E. Edward Zimmermann
Petitioner

)
)
)
)
)
)
)

vs.

Case No.:

The Borough of Doylestown
The State of Pennsylvania
The United States Government )
Respondents
)

MOTION FOR LEAVE TO FILE A PETITION FOR A WRIT OF
MANDAMUS OR IN THE ALTERNATIVE A PETITION FOR A
WRIT OF PROHIBITION
1) It is Petitioners position this matter is landmark.
2) The answer to the question this action raises could cause a significant
change in the way all of government (federal and state) makes use of free
market goods and services.
3) To the extent the instant matter raises new arguments to settled law, it
may result in this Highly Honorable Court reversing itself.
For these reason Petitioner respectfully request this court grant this motion.
Respectfully Submitted,

E. Edward Zimmermann
08-25-2020
cc:

William Bar, Attorney General, David J. Freed, United States Attorney
William M. McSwain, United States Attorney, Noel Francisco, Solicitor
General, Rufus A. Jennings, Esquire, Tom Wolf, Governor, Josh Shapiro,
Attorney General
1

IN THE SUPREME COURT OF THE UNITED STATES
The Firm
Petitioner
v.
The Borough of Doylestown
The Commonwealth of Pennsylvania
The United States Government
/ ■ Respondents

)
)
)
)
)
)
)
)
)

Case No.:

CERTIFICATE OF SERVICE
I, E. Edward Zimmermann, representing myself, do hereby certify that on
this the 25th day of August 2020,1 served a copy of the foregoing Motion for Leave
to File an Extra Ordinary Writ of Mandamus or in the alternative an Extra
Ordinary Writ of Prohibition on the opposing side by mailing a copy thereof to,
1) William Bar, Attorney General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
2) David J. Freed, United States Attorney
The US Attorney’s Office for The Middle District of Pennsylvania
William J. Nealon Federal Building and Courthouse
235 N. Washington Avenue, Suite 311
Scranton, PA 18503
3) William M. McSwain, United States Attorney
U.S. Attorney's Office
615 ChestnurStreet, Suite 1250
Philadelphia, PA 19106
4) Noel Francisco, Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

)

:

- • .

5) Rufus A. Jennings, Esquire
The Borough of Doylestown
Deasey Mahoney & Valentini
1601 Market Street, Suite 3400
Philadelphia, PA 19103-2301
6) Tom Wolf, Governor
The Commonwealth of Pennsylvania
Office of the Governor
508 Main Capitol Building
Harrisburg, PA 17120
7) Josh Shapiro, Attorney General
The Commonwealth of Pennsylvania
Pennsylvania Office of the Attorney General
Strawberry Square
Harrisburg, PA 17120

Respectfully submitted,

E. Edward Zimmermann
08-25-2020

